Nos. 19-840, 19-1019
In the

Supreme Court of the United States
STATE OF CALIFORNIA, et al.,
Petitioners,
v.
STATE OF TEXAS, et al.,
Respondents.
––––––––––––––––––––––––––––––
STATE OF TEXAS, et al.,
Cross-Petitioners,
v.
STATE OF CALIFORNIA, et al.,
Cross-Respondents.
On Writs of Certiorari to the United States
Court of A ppeals for the Fifth Circuit

BRIEF OF AMICUS CURIAE NATIONAL
ASSOCIATION OF COMMUNITY HEALTH
CENTERS IN SUPPORT OF PETITIONERS
AND CROSS-RESPONDENTS
Edward T. Waters
Counsel of Record
Phillip A. Escoriaza
Feldesman Tucker Leifer Fidell LLP
1129 20th Street, N.W., 4th Floor
Washington, D.C. 20036
(202) 466-8960
ewaters@ftlf.com
Counsel for Amicus Curiae
296065

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 7
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

Health Centers are the Main Source
of Accessible Primary Care for Over
28 Million Low-Income Individuals and
Medically Underserved Communities . . . . . . . . 10

II. The Patient Protection and Affordable
Care Act Expanded and Strengthened the
Health Center Program. . . . . . . . . . . . . . . . . . . . 13
III. Health Centers Deliver Quality, CostEf fe c t i ve S e r v ic e s W h i le S e r v i n g
More At -Ri sk Pat ient s t ha n O t her
Ambulatory Primary Care Providers . . . . . . . . 18

ii
Table of Contents
Page
IV. Completely Repealing the ACA, Including
Invalidating Key Health Center Program
Provisions such as the CHC Fund, Teaching
and NHSC Funding, and Health Center
Medicare PPS, and Critical Sources of
Revenue that Support Operations such as
the Medicaid Expansion and the Subsidized
Health Insurance Marketplace Would
Severely Jeopardize Health Centers’ Ability
to Deliver the Primary Care Services
Upon Which Over 28 Million Low-Income
Individuals and Thousands of Medically
Underserved Communities Depend . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Arizona Christian Sch. Tuition Org. v. Winn,
563 U.S. 125 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Ayotte v. Planned Parenthood,
546 U.S. 320 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
King v. Burwell,
135 S. Ct. 2480 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 18
Maine Community Health Options v.
United States,
590 U.S. ___ (2020)  . . . . . . . . . . . . . . . . . . . . . 7, 18, 25
National Federation of Independent Business v.
Sebelius,
567 U.S. 519 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
United States v. Booker,
543 U.S. 220 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . 7, 24
STATUTES
26 U.S.C. § 36B  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
42 U.S.C. § 1396a(a)(10)(A)(i)(VIII) . . . . . . . . . . . . . . . . 16
42 U.S.C. § 1396d(y)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

iv
Cited Authorities
Page
Bipartisan Budget Act of 2018, Pub. L. 115-123
§ 50901(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
§ 50901(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 15
§ 50901(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 16
Coronavirus Aid Relief and Economic Security Act
(“CARES Act”), Pub. L. 116-136 (Mar. 27, 2020)
§ 3211  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
§ 3831  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
§ 3831(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
§ 3831(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
§ 3831(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Coronav i r us P repa redness and Response
Supplemental Appropriations Act, 2020,
Pub. L. 116 -123 (Mar. 6, 2020), Div. A ,
Tit. III, 134 Stat. 149  . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Fu r ther Consolidated Appropr iations
Act, 2020, Pub. L. 116-94, Div. N, Title I,
§§ 401(a), 401(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Further Continuing Appropriations Act, 2020
and Further Health Extenders Act of 2019,
Pub. L. 116-69, §§ 1101(a), 1101(c)  . . . . . . . . . . . . . .  3-4

v
Cited Authorities
Page
Medicare Access and CHIP Reauthorization
Act of 2015, Pub. L. 114-10, § 221  . . . . . . . . . . 3, 15, 16
Patient Protection and Affordable Care Act
(ACA), Pub. L. 111-148 (Mar. 2 3, 2010)
§ 5601(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13
§ 5508 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 15
§ 5602 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 10501  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 17
§ 10503(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
§ 10503  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 14, 15
§ 10503(b)(2)(F) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Paycheck Protection Program and Healthcare
Enhancement Act, Pub. L. 116-139, H.R. 266,
Div. B, Tit. I (Apr. 24, 2020) . . . . . . . . . . . . . . . . . . . . . 5
Public Health Service Act, § 319, 42 U.S.C.
§ 247d  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Public Health Service Act, 42 U.S.C. § 254b
§ 254b(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
§ 254b(b)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
§ 254b(b)(3)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

vi
Cited Authorities
Page
§ 254b(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 254b(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 254b(k)(3)(G)(iii) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Robert T. Stafford Disaster Relief and Emergency
Assistance Act, 42 U.S.C. §§ 5121-5207 . . . . . . . . . . . 5
Special Health Revenue Sharing Act of 1975, Pub.
L. 94-63, § 501, 89 Stat. 342-346 . . . . . . . . . . . . . . . . . 3
Third Continuing Appropriations for Fiscal
Year 2018, Pub. L. 115-96, Div. C, § 3101 . . . . . . . . . . 3
OTHER AUTHORITIES
American Academy of Family Physicians, AAFP
to Congress: Reauthorize the THCGME
Program Now (Sept. 17, 2019), available
at: https://www.aafp.org/news/governmentmedicine/2019 0917thcg mespeakout.html
(last visited May 11, 2020) . . . . . . . . . . . . . . . . . . . . . 16
Linda J. Blumberg et al ., State by State
Estimates of the Coverage and Funding
Consequences of Full Repeal of the ACA,
Urban Institute (Mar. 26, 2019), available
at: https://w w w.urban.org /sites/default /
files/publication/100000/repeal_of_the_aca_
by_state_2.pdf (last visited Apr. 25, 2020)  . . . . . . . 22

vii
Cited Authorities
Page
Letter from P resident Donald J. T rump on
E m er genc y D e t er m i na t ion U n der t h e
S ta fford A ct (Mar. 13, 2020), available
at: https://w w w.whitehouse.gov/briefingsstatements/letter-president-donald-j-trumpemergency- det er m i nation- st a f ford-act /
(last visited Mar. 24, 2020) . . . . . . . . . . . . . . . . . . . . . . 5
NACHC, Community Health Center Chartbook
2020 (Jan. 2020), available at: https://www.nachc.
org/wp-content/uploads/2020/01/Chartbook2020-Final.pdf (last visited Apr. 25, 2020) . . . . passim
Proclamation by President Donald J. Trump on
Declaring a National Emergency Concerning
the Novel Coronavirus Disease (COVID-19)
Outbreak (Mar. 13, 2020), available at: https://
w w w.whitehouse.gov/presidential-actions/
proclamation-declaring-national-emergencyconcerning-novel-coronavirus-disease-covid-19outbreak/ (last visited Apr. 3, 2020) . . . . . . . . . . . . . . 5
Sara Rosenbaum et al., Community Health Centers
Ten Years After the Affordable Care Act: A Decade
of Progress and the Challenges Ahead, Geiger
Gibson RCHN Community Health Foundation
Research Collaborative (Mar. 2020), available
at: https://www.rchnfoundation.org/wp-content/
uploads/2020/03/FINAL-GG-IB- 61-ACACHC-3.4.20.pdf (last visited Apr. 20, 2020) . . . passim

viii
Cited Authorities
Page
Peter Shin et al., A Profile of Community
Health Center Patients: Implications for
Policy, K a iser Fa mily Foundation (Dec.
23, 2013), available at: https://www.kff.org/
medicaid/issue-brief/a-profile-of-communityhealth- center-patients-implications-forpolicy/ (last visited Apr. 25, 2020) . . . . . . . . . . . . . . . 19
Peter Shin, Jessica Sharac & Sara Rosenbaum,
If the Affordable Care Act is Repealed, What
Would Be the Impact on Community Health
Centers and the Communities They Serve? GW
Health Policy and Management Matters (May
1, 2020), available at: http://gwhpmmatters.com/
if-affordable-care-act-repealed-what-wouldbe-impact-community-health-centers-andcommunities-they (last visited May 1, 2020) . . . 23, 24
U. S. D e pa r t m en t of H e a lt h a n d H u m a n
S erv ices , D et erm inat ion t h at a P u blic
H ealth Emergency Exists (Jan. 31, 2020),
available at: https://www.phe.gov/emergency/
news/healthactions/phe/Pages/2019-nCoV.
aspx, (last visited Mar. 24, 2020) . . . . . . . . . . . . . . . . . 5

ix
Cited Authorities
Page
U.S. Dep’t of Health & Human Servs., Health Res.
& Servs. Admin., Bureau of Health Workforce,
National Center for H ealth Workforce
A nalysis , National Regional Projections
of Supply and Demand for Primary Care
Practitioners 2013-2025 (Nov. 2016), available
at: https://bhw.hrsa.gov/sites/default/files/bhw/
health-workforce-analysis/research/projections/
primary-care-national-projections2013-2025.
pdf (last visited Apr. 26, 2020) . . . . . . . . . . . . . . . . . . . 6
U.S. Dep’t of Health & Human Servs., Health
Res . & Servs . A dmin., Bureau of P rimary
H ea lth Ca re , 2018 Health Center Data:
National Data, Other Data Elements (2019),
available at: https:// bphc.hrsa.gov/uds/
datacenter.aspx?q=tall&year=2018&state
(last visited Apr. 25, 2020) . . . . . . . . . . . . . . . . . . . . . 19
U.S. Dep’t of Health & Human Servs., Health
Res . & Servs . A dmin., Bureau of P rimary
H ea lth Ca re , 2018 Health Center Data:
National Data, Table 5: Staffing and Utilization
(2019), available at: https://bphc.hrsa.gov/uds/
datacenter.aspx?q=tall&year=2018&state
(last visited Apr. 25, 2020) . . . . . . . . . . . . . . . . . . . . . 15
U.S. Dep’t of Health & Human Servs., Centers
for M edica re & M edica id S ervs ., FQHC
PPS Overview (Nov. 13, 2019), available
a t : h t t p s : / / w w w. c m s . g o v / M e d i c a r e /
M e d i c a r e - Fe e - f o r - S e r v i c e - P a y m e n t /
FQHCPPS (last visited May 8, 2020) . . . . . . . . . . . .  17

x
Cited Authorities
Page
U.S. Dep’t of Health & Human Servs., Health Res.
& Servs. A dmin., Bureau of Primary Health
Care, Notice of Funding Opportunity Service
Area Competition HRSA-20-100 (Jan. 7, 2020),
available at: https://bphc.hrsa.gov/programopportunities/sac (last visited May 7, 2020) . . . . . . . 11
U.S. Dep’t of Health & Human Servs., Health
R e s . & S e r v s . A d m i n . , NHSC Bui l d s
Healthy Communities (2019), available
a t: ht t p s: // bhw. h r s a . g ov/s it e s /de fau lt /
f i les / bhw/ loans- schola rships / bhw-nhscinfographic.pdf (last visited Apr. 25, 2020) . . . . . . . 15
U.S. Dep’t of Health & Human Servs., Health
R es . & S ervs . A dmin., Notice of Funding
Opportunity HRSA-20-011: Teaching Health
Cent ers G r a du at e Medical Edu cati o n
(THCGME) Program (Jun. 13, 2019), available
at: https://www.hrsa.gov/grants/find-funding/
HRSA-20-011 (last visited Apr. 25, 2020)  . . . . . . 15-16
U.S. Dep’t of Health & Human Servs., Health
Res. & Servs. A dmin., Press Release: HHS
Awards $1.32 Billion to Health Centers
in Historic U.S. Response to COVID-19
(Apr. 8, 2020), available at: https://w w w.
hhs.gov/about/news/2020/04/08/hhs-awardsbillion-to-health-centers-in-historic-covid19response.html (last visited Apr. 27, 2020)  . . . . . . . . . 5

xi
Cited Authorities
Page
U.S. Dep’t of Health & Human Servs., Health Res.
& Servs. A dmin., Press Release: HHS Awards
$100 Million to Health Centers for COVID-19
Response (Mar. 24, 2020), available at: https://
w w w.hhs.gov/about/news/2020/03/24/hhsawards-100-million-to-health-centers-for-covid19-response.html (last visited Apr. 27, 2020) . . . . .  4-5
U.S. Dep’t of Health & Human Servs., Health
Res. & Servs. A dmin., Press Release: HHS
Awards More Than Half Billion Dollars Across
the Nation to Expand COVID-19 Testing (May 7,
2020), available at: https://www.hhs.gov/about/
news/2020/05/07/hhs-awards-more-than-halfbillion-across-the-nation-to-expand-covid19testing.html (last visited May 7, 2020) . . . . . . 4, 13, 25
U.S. Dep’t of Health & Human Servs., Health
Res. & Servs. A dmin., Requesting a Change
in Scope to Add Temporary Service Sites in
Response to Emergency Events, Program
Assistance Letter 2020-05 (Apr. 15, 2020),
available at: https:// bphc.hrsa.gov/sites/
default/files/bphc/programrequirements/pdf/
pal202005.pdf (last visited Apr. 27, 2020)  . . . . . . . . 25
U.S. Dep’t of Health & Human Servs., Health
Res. & Servs. A dmin., Teaching Health Centers
Graduate Medical Education (THCGME)
Program: Who do we serve? (Dec. 2019),
available at: https://bhw.hrsa.gov/grants/
medicine/thcgme (last visited May 10, 2020) . . . . . . 16

xii
Cited Authorities
Page
U.S. Government Accountability Office, Health
Centers: Trends in Revenue and Grants
Supported by the Community Health Center
Fund, Report 19-496 (May 2019), available
at: https://www.gao.gov/assets/700/699394.pdf
(last visited Apr. 24, 2020) . . . . . . . . . . . . . . . . . . . . . 12
U.S. G ov er n m en t A cc ou n ta bi li t y O ffice ,
Medicare Payments to Federally Qualified
Health Centers, Report 10-576R (Jul. 30, 2010),
available at: https://www.gao.gov/products/
GAO-10-576R (last visited May 8, 2020)  . . . . . . . . .  17

1
INTEREST OF AMICUS CURIAE
The National Association of Community Health
Centers (NACHC), a Section 501(c)(3) tax-exempt
organization, is the national membership organization for
health centers, which provide comprehensive, primary
care services to one in twelve Americans.1 The origins of
the health center program date back to the 1960’s and the
grant program that establishes the base funding for these
community-based organizations is found under Section
330 of the Public Health Service Act. Over the past 50
years, Congress has passed numerous pieces of legislation
to ensure health centers grow and thrive in order to
provide needed primary and preventive care services
to medically underserved individuals without regard to
income level or insurance status. Nearly 1,400 health
centers serve as the source of primary health care for
over 28 million individuals in more than 11,700 rural and
urban communities; clinical, administrative and support
staff surpass 236,000 full-time equivalents (FTEs).
NACHC files this brief to provide to the Court
appropriate insight into how the Patient Protection and
Affordable Care Act (ACA), Pub. L. 111-148 (Mar. 23,
2010), significantly furthered the purpose and reach of the
health center program through substantial direct funding,
including creation of the Community Health Center Fund.
1. Pursuant to Supreme Court Rule 37.6, amicus certifies
that no party or counsel for a party authored this brief in whole
or in part, and no party other than amicus, its members, or its
counsel contributed money intended to fund the preparation or
submission of the brief. All parties have filed blanket consents
to the filing of amicus briefs or provided written consent to the
filing of this brief.

2
Congress has reauthorized this funding three times in the
ten years since passage of the ACA. This health center
specific funding combined with the ACA’s expansion of
insurance coverage to millions of new patients nationwide
and resulted in dramatic improvements in access to
quality, cost-effective health care services for residents
of low income and medically underserved rural and urban
communities across the United States.
Further expansion and, indeed, the continued viability
of many health centers that exist today, would be severely
damaged should the Court follow the logic of the lower
court by finding that, by setting the shared responsibility
payment in 26 U.S.C. § 5000A(c) to zero, Congress
rendered the ACA unconstitutional in its entirety. Such a
ruling obliterating the ACA would nullify the reforms that
have been essential to the success of the modern health
center program, including the Medicaid expansion, special
payment rates for health centers under Medicare, the
Community Health Center Fund, and specific programs
such as the Teaching Health Centers Graduate Medical
Education program, which has trained more than 1,000
health care professionals to address highly trained
medical workforce shortages.
Today, tens of thousands of health center staff, working
in the poorest communities, serve on the front lines of the
fight against the coronavirus (COVID-19) pandemic in
all 50 states, the District of Columbia, Puerto Rico and
other territories, as Congress intended. Now, more than
ever, consistent with this Court’s precedents, the ACA
provisions that support the health center program must
be upheld.

3
INTRODUCTION
Congress first authorized the health center program
in Section 501 of the Special Health Revenue Sharing
Act of 1975, Pub. L. 94-63, 89 Stat. 342-346. Since then,
Congress has ensured the program’s continued growth
as an independent, key component of the nation’s health
care landscape. Congress launched a dramatic expansion
of the health center program through the ACA. Key
health center program provisions in the ACA include: (i)
establishing the program’s permanent funding formula;
(ii) creating a dedicated multi-billion dollar fund to add
new health center sites, expand and support operations
and increase service capacity; (iii) implementing a health
center prospective payment system for Medicare services;
(iv) authorizing grants to support primary care physician
training through health center residency programs; and
(v) strengthening the health center workforce through
special funding for the National Health Service Corps.
ACA, §§ 5508, 5601(a)(1), 10501, 10503.
Moreover, Congress has appropriated extensive direct
support to health centers by amending the ACA funding
provisions specific to health centers three times since
2010. See Coronavirus Aid Relief and Economic Security
Act (CARES Act), Pub. L. 116-136, § 3831 (Mar. 27,
2020) (health center program funding extension through
Nov. 30, 2020). See also Medicare Access and CHIP
Reauthorization Act of 2015 (MACRA), Pub. L. 114-10,
§ 221; Third Continuing Appropriations for Fiscal Year
2018, Pub. L. 115-96, Div. C, § 3101; Bipartisan Budget
Act of 2018 (BBA), Pub. L. 115-123, §§ 50901(a), 50901(c),
50901(d); Further Continuing Appropriations Act, 2020
and Further Health Extenders Act of 2019, Pub. L. 116-69,

4
§§ 1101(a), 1101(c); Further Consolidated Appropriations
Act, 2020, Pub. L. 116-94, Div. N, Title I, §§ 401(a), 401(c).
Unprecedented growth since enactment of the ACA
has positioned health centers to improve community health
and to deliver crucial services where they are needed most
to prevent, treat and contain public health threats such
as HIV infection, opioid addiction and Zika infection.
Indeed, without the ACA’s direct funding of health centers,
Medicaid expansion and other critical reforms, 4.5 million
patients would lose insurance coverage and health centers
would lose more than $4 billion in funding annually,
curtailing their ability to maintain the scale of services
they provide in communities across the nation today.
Now health centers are confronting, on their
communities’ behalf, the greatest public health threat this
nation has experienced in a century. “’Health centers are
a first line of defense, as they are testing for coronavirus
and delivering high-quality primary care to our nation’s
most vulnerable populations.’” U.S. Dep ’t of Health
& Human Servs., Health Res. & Servs. A dmin., Press
Release: HHS Awards More than Half Billion Dollars
Across the Nation to Expand COVID-19 Testing (May 7,
2020). So important are their efforts that Congress has
authorized additional appropriations totaling $2.02 billion
in emergency federal funding to support health centers’
work on the COVID-19 front-line. Id. See also Coronavirus
Preparedness and Response Supplemental Appropriations
Act, 2020, Pub. L. 116-123 (Mar. 6, 2020), Div. A, Tit. III,
134 Stat. 149 (appropriating $100,000,000 for health center
program grants to prevent, prepare for, and respond to
coronavirus); U.S. Dep ’t of Health & Human Servs.,
Health Res . & Servs . A dmin., P ress Release: HHS

5
Awards $100 Million to Health Centers for COVID-19
Response (Mar. 24, 2020); CARES Act, supra, § 3211
(Mar. 27, 2020) (appropriating $1,320,000,000 for Fiscal
Year 2020 supplemental awards to health centers for the
detection of SARS-CoV-2 or the prevention, diagnosis and
treatment of COVID-19); U.S. Dep’t of Health & Human
Servs., Health Res. & Servs. A dmin., Press Release:
HHS Awards $1.32 Billion to Health Centers in Historic
U.S. Response to COVID-19 (Apr. 8, 2020); Paycheck
Protection Program and Healthcare Enhancement Act,
Pub. L. 116-139, H.R. 266, Div. B, Tit. I (Apr. 24, 2020) at
7 (appropriating $600,000,000 for section 330 grants to
health centers). 2
The achievements of health centers over the past
decade would have been impossible without the ACA
reforms. Before the ACA, the health center program was
highly effective but limited by staff, funding and facilities.
2. On January 31, 2020, the Secretary of the Department of
Health and Human Services declared a public health emergency
for the coronavirus pandemic, pursuant to Section 319 of the Public
Health Service Act, 42 U.S.C. § 247d. U.S. Department of Health
a nd Hum a n S erv ices , D etermination th at a P ublic H ea lth
Emergency Exists. The PHE is retroactive to January 27, 2020. In
turn, in response to the coronavirus pandemic, on March 13, 2020,
the President issued a proclamation under the National Emergencies
Act. Proclamation by President Donald J. Trump on Declaring a
National Emergency Concerning the Novel Coronavirus Disease
(COVID-19) Outbreak. Likewise, on March 13, 2020, the President
declared a national emergency under the Robert T. Stafford Disaster
Relief and Emergency Assistance Act, 42 U.S.C. §§ 5121-5207, in
response to the coronavirus pandemic. Letter from P resident
Donald J. Trump on Emergency Determination Under the Stafford
Act. These three national emergency declarations remain in effect
at the time of filing this brief.

6
The ACA transformed health centers into a mainstay of
the nation’s primary health care system and they have
become the single most important source of primary care
for low-income and medically underserved populations.
This growth was necessary to solve gaps in health
care delivery particularly in primary care. Prior to 2014,
62 million people in our country had inadequate access
to primary health care. NACHC, Community Health
Center Chartbook 2020 (Jan. 2020), Fig. 6-8. In addition
to the need for access to sites and services, primary care
staffing was and is a growing problem. Primary care
physician shortages are expected to reach 23,640 FTEs
by 2025. U.S. Dep’t of Health & Human Servs., Health
Res. & Servs. A dmin., Bureau of Health Workforce,
National Center for H ealth Workforce A nalysis ,
National Regional Projections of Supply and Demand
for Primary Care Practitioners 2013-2025 (Nov. 2016) at
4. In response to these problems, Congress strengthened
health centers through numerous provisions of the
ACA that are discussed in detail throughout this brief;
provisions designed to mitigate the growing workforce
shortage, add new facilities and stabilize health center
funding. The goal of these provisions is clear -- to increase
access to primary care for needy populations. By striking
the ACA in its entirety, including all of the specific health
center provisions, a program that has grown to serve
over 28 million individuals in medically underserved
areas would face cutting hours, laying off staff, and even
shutting down facilities, all in the middle of a pandemic.
The ACA health center program sections are
completely unrelated to the minimum coverage provision
at issue. In fact, many of the health center provisions

7
went into effect before 2014, when the minimum coverage
provision became effective. See, e.g., ACA, § 10503(b)(1)
(appropriating billions in health center program funds
from Fiscal Year 2011 to the present). With or without
the minimum coverage provision, the sections in the
ACA that support the health center program would
independently remain “’consistent with Congress’ basic
objectives in enacting the statute,” United States v.
Booker, 543 U.S. 200, 258-59 (2005), and would continue
to further “Congress’ basic statutory goal,” id. at 250, to
support health centers so that individuals in medically
underserved areas obtain the health care they need.
Clearly, to invalidate the ACA health center program
provisions would not effectuate the intent of Congress. 3
These provisions stand on their own and are severable
from the minimum coverage provision should the Court
find it unconstitutional.
SUMMARY OF THE ARGUMENT
I. Health centers are vital to Congress’s healthcare
safety net design. Section 330 of the Public Health Service
Act authorizes the Secretary of Health and Human
Services to make grants to public and nonprofit private
entities to plan and develop health centers and to make
grants to reimburse the costs of health center operations.
As recipients of these grants, health centers must
provide health care to all residents of their service area,
3. This Court has held that “…Congress passed the Patient
Protection and Affordable Care Act… seeking to improve national
health-insurance markets and extend coverage to millions of
people without adequate (or any) health insurance.” Me. Cmty.
Health Options v. United States, 590 U.S. ___, slip op. at 2 (Apr.
27, 2020).

8
regardless of ability to pay. Health centers may be the only
source of primary care services for vulnerable populations
in certain communities. Overall, health centers provide
services to 1 in every 12 people in the United States at
substantial costs savings per patient when compared to
non-health center users.
II. Growing community health centers was a key
goal of the ACA, with dramatic results. By permanently
authorizing the program, the ACA eliminated the need
for periodic reauthorization. The ACA also launched
policy reforms to provide health centers with additional
sources of funding to meet the costs of caring for patients.
First, the ACA created the Community Health Center
Fund (“CHC Fund”), a long-term funding source that
permitted health centers to increase capacity, add new
sites, widen the scope of preventive and primary care
services (including oral health, behavioral health, and
pharmaceutical assistance), and train, hire, and retain
clinical, administrative, and patient support staff. Second,
the ACA expanded eligibility for Medicaid program
benefits to adults with incomes up to 138 percent of the FPL
and increased federal financial participation (“match”) for
Medicaid services to the expansion population. Third,
the ACA added preventive services payments to the
Medicare payment rate, eliminated a cap on Medicare
payments to health centers and implemented a prospective
payment system to align payments for Medicare services
better with actual health center costs. Fourth, the ACA
established a new pathway to health insurance coverage
through subsidized marketplace plans.
III. The ACA has enabled health centers to expand
so that they can meet growing demand and care for
more complex patient needs. Despite serving more at-

9
risk patients and patients who suffer from chronic health
conditions at higher rates than the general population,
health centers continue to maintain top quality and
efficiency standards. For instance, health centers achieve
higher rates of hypertension control and diabetes control
than the national average. In meeting these healthcare
needs, health centers deliver a wide range of services with
remarkably cost-effective, quality care.
IV. Health centers experienced a substantial influx
of new patients as the ACA health center provisions
supported program expansion and hiring additional staff,
established a health center Medicare prospective payment
system and increased health coverage through expanded
Medicaid and the private subsidized marketplace.
Complete ACA repeal would profoundly harm health
centers and the populations they serve. Researchers from
the George Washington University Milken Institute of
Public Health estimate conservatively that repealing the
ACA’s Medicaid expansion and Marketplace subsidies
would lead to an increase of 4.5 million uninsured health
center patients and a 12 percent reduction in total revenue
($3.5 billion in a single year), which would in turn trigger a
reduction in capacity of 3.4 million patients, nearly 29,000
FTE staff members, over 14.2 million patient visits, and
1,432 sites from 2018 levels. Congress has supported
the health center program as a proven, quality care,
patient-focused and cost-efficient solution to primary
care shortages and other barriers to access to care. The
COVID-19 pandemic has particularly highlighted the
critical role of health centers. Health centers are serving
the primary care needs of their patients throughout the
ongoing coronavirus public health emergency. At the time
of filing this brief, almost 90 percent of health centers

10
report an aggregate of over 100,000 patients tested for
coronavirus weekly and more than 65 percent offer walkup or drive-up testing. This Court extends deference to
the policy choices of the coordinate, political branches
of government and accordingly should not override
Congress’s policy judgment here.
ARGUMENT
I.

Health Centers are the Main Source of Accessible
Primary Care for Over 28 Million Low-Income
I n d i v i d u a l s a n d M e d i c a l l y Un d e r s e r v e d
Communities.

Health centers are a lynchpin of Congress’s healthcare
safety net design. Section 330 of the Public Health Service
Act (PHSA), 42 U.S.C. § 254b, provides federal grants
to health centers to operate in medically underserved
areas. The Act requires health centers to provide a
comprehensive array of services that includes family
medicine, internal medicine, pediatrics, obstetrics
and gynecological services; diagnostic laboratory and
radiologic services; prenatal and perinatal services; wellchild care and immunizations against vaccine-preventable
diseases; preventive health services such as screenings
for cancer, blood lead levels, communicable diseases
and cholesterol; voluntary family planning services;
preventive dental services; emergency medical services;
and pharmaceutical services, among other services. 42
U.S.C. § 254b(b)(1)(A) (defining “required primary health
services”).
Section 330 of the PHSA authorizes the Secretary
of Health and Human Services to make grants to public

11
and nonprofit private entities to plan and develop health
centers and to make grants to reimburse the costs of
health center operations. Id. §§ 254b(c) (planning grants),
254b(e) (operating grants). Health centers must provide
services to medically underserved populations. Id. The
term “medically underserved population” means “the
population of an urban or rural area designated by
the Secretary as an area with a shortage of personal
health services or a population group designated by
the Secretary as having a shortage of such services.” Id.
§ 254b(b)(3)(A). In fact, a health center program provision
in the ACA required the Secretary to open a process of
negotiated rulemaking to develop the methodology and
criteria for designating medically underserved populations
and health profession shortage areas in consultation with
health centers and other entities and stakeholders. ACA,
§ 5602 (negotiated rulemaking requirement).
Organizations compete for program support to provide
comprehensive primary health care services to defined
service areas and patient populations. See U.S. Dep’t of
Health & Human Servs., Health Res. & Servs. A dmin.,
Bureau of Primary Health Care, Notice of Funding
Opportunity Service Area Competition HRSA-20-100
(Jan. 7, 2020) at 1. Health centers fall into four general
categories: (1) centers serving medically underserved
areas; (2) centers serving homeless populations in a
specific community or geographic area; (3) centers
serving migrant and seasonal farmworker populations in a
geographical area; and (4) centers serving public housing
residents. 42 U.S.C. § 254b(a)(1).
The PHSA requires health centers to provide health
care to all residents of their service area, regardless

12
of ability to pay. 42 U.S.C. §§ 254b(a)(1), 254b(k)(3)(G)
(iii) (“no patient will be denied health care services due
to an individual’s inability to pay for such services”).
Consequently, for half a century community health
centers have been the main source of communitybased, cost-effective and accessible health services to
underserved, low-income persons. Most health center
patients (82 percent) are publicly insured or uninsured.
See NACHC, supra, at Fig. 1-5. Health center patients
are disproportionately poor: 91 percent of health center
patients are under 200 percent of the Federal Poverty Line
(“FPL”); 69 percent of patients are at or below 100 percent
FPL; 48 percent of patients are Medicaid beneficiaries;
and 23 percent are uninsured. Id. Figs. 1-8, 2-9 and 2-11.
Health centers serve 1 in 3 people living in poverty, 1 in
5 residents of rural areas, 1 in every 9 children in the
United States, 1 in 8 people of a racial or ethnic minority,
and 1 in every 6 Medicaid beneficiaries. Id. Fig. 1-1. Health
centers provide services to more than 385,000 veterans
and may be the only primary care providers to vulnerable
populations in certain communities. U.S. G overnment
A ccounta bilit y O ffice , Health Centers: Trends in
Revenue and Grants Supported by the Community
Health Center Fund, Report 19-496 (May 2019) at 1;
NACHC, supra, Fig. 1-2. Overall, health centers provide
services to 1 in every 12 people in the United States at an
estimated annual costs savings of $1,263 (24 percent less)
per patient when compared to non-health center users.
See NACHC, supra, Fig. 4-2.

13
II. The Patient Protection and Affordable Care Act
Expanded and Strengthened the Health Center
Program.
Growing community health centers was a key goal
of the ACA, with dramatic results. The number of health
centers reached 1,362 by 2018, the most recent year for
which data from the Department of Health and Human
Services Uniform Data System (“UDS”) are available.
This represents a 21 percent increase from 2010, the year
the ACA passed. Likewise, in that period, the number of
health center service sites grew by 69 percent from 6,949 to
11,744 and patient visits rose to 116 million visits annually,
a 50 percent increase from 77 million visits in 2010. See S.
Rosenbaum et al., Community Health Centers Ten Years
After the Affordable Care Act: A Decade of Progress and
the Challenges Ahead, Geiger Gibson RCHN Community
Health Foundation Research Collaborative (Mar. 2020)
at 6. The latest funding information from HHS places the
total number of health centers at 1,385. U.S. Dep’t of
Health & Human Servs., Health Res. & Servs. A dmin.,
Press Release: HHS Awards More than Half Billion
Dollars Across the Nation to Expand COVID-19 Testing
(May 7, 2020).
Underscoring that health centers have become an
essential component of the health care safety net, the
ACA permanently authorized the program, eliminating
the need for periodic reauthorization. ACA, § 5601(a)
(1), 124 Stat. 677 (authorizing health center program
appropriations for Fiscal Years 2010 through 2016 and
adopting permanent funding formula for subsequent fiscal
years). The ACA also launched policy reforms to provide
health centers with additional sources of funding to meet
the costs of caring for patients, which we review in turn.

14
First, the ACA created the Community Health Center
Fund (“CHC Fund”), a long-term funding source that
permitted health centers to increase capacity by adding
new sites and expanding operations. ACA, § 10503. For
Fiscal Years 2011 through 2017, health centers received
$15.8 billion in section 330 grants funded by the CHC
Fund, of which $12.6 billion (more than 70 percent)
primarily supported health center operations and services
nationwide. GAO, supra, at 12. Another $1.1 billion (7
percent) helped establish new health centers or new
sites at existing health centers. Id. at 13. Congress has
replenished the CHC Fund through periodic amendments
to Section 10503 of the ACA, including the latest funding
extension in the CARES Act. Pub. L. 116-136, 3831(a)
(setting Fiscal Year 2020 funding at $4 billion and providing
funding through the end of November of 2020). Without
the CHC Fund, health centers would incur substantial
losses as these funds “fill the gap” between operations
costs and revenues, particularly with respect to services
to uninsured patients, services not typically covered by
other payors such as adult dental care, services for lowincome patients who qualify for sliding fee assistance, to
support services to patients who carry insurance yet face
substantial deductibles and cost-sharing or to make care
accessible to vulnerable populations through translation,
transportation, care management, and other patient
supports. GAO, supra, at 13; Rosenbaum et al., supra, at
12. Congress understands these financial and operational
challenges and has appropriated funds accordingly.
Health center expansion through ACA program
reforms resulted in substantial staff increases in the last
ten years. The number of nurses increased 62 percent,
from 11,365 FTEs in 2010 to 18,445 FTEs in 2018. Dental

15
staff nearly doubled, from 9,452 in 2010 to 18,715 in 2018.
Behavioral health staff increased 165 percent, from 5,095
FTEs in 2010 to 13,518 FTEs in 2018. Likewise, the number
of health center physicians grew 40 percent from 9,592 in
2010 to 13,394 in 2018. Rosenbaum et al., supra, at 6, 7. In
all, more than 236,000 dedicated health professionals and
support staff ensure health center patients receive quality,
effective medical care. U.S. Dep’t of Health & Human
Servs., Health Res. & Servs. A dmin., Bureau of Primary
Health Care, 2018 Health Center Data: National Data,
Table 5: Staffing and Utilization (2019).
CHC Fund awards and ACA provisions that created
special funding for the National Health Service Corps and
the Teaching Health Centers Graduate Medical Education
(THCGME) program facilitated these dramatic health
center staff increases. ACA, §§ 5508, 10503(b)(2)(F).
Close to 60 percent of the National Health Service Corps’s
13,000 primary care clinicians, mental and behavioral
health providers, and dental clinicians serve patients
at health centers, making the Corps “a major source of
health center clinical staffing.” Rosenbaum et al., supra,
at 4; see also U.S. Dep’t of Health & Human Servs.,
Health Res. & Servs. A dmin., NHSC Builds Healthy
Communities (2019). As with the CHC Fund, Congress
amended Section 10503 of the ACA to replenish funding
for the National Health Service Corps in the MACRA,
§ 221, the BBA, § 50901(c), and most recently in the
CARES Act, § 3831(b) (allocating close to $362 million
through the end of November of 2020).
Furthermore, the Teaching Health Centers program
supports primary care medical and dental residency
programs in health centers. U.S. Dep’t of Health & Human

16
Servs., Health Res. & Servs. A dmin., Notice of Funding
Opportunity HRSA-20-011: Teaching Health Centers
Graduate Medical Education (THCGME) Program
(Jun. 13, 2019) at 4. Since 2011, the program, “whose
purpose was to strengthen the ties between health centers
and health professions and medical residency training
programs,” Rosenbaum et al., supra, at 4, has prepared
over 1,000 new primary care physicians and dentists to
provide high quality care in rural and urban underserved
communities and develop competencies to serve these
diverse populations and communities. American Academy
of Family Physicians, AAFP to Congress: Reauthorize
the THCGME Program Now (Sept. 17, 2019). See also
Notice of Funding, supra, at 4. With over half of training
sites based in health centers and rural clinics that serve
medically underserved communities, U.S. D ep ’ t of
Health & Human Servs., Health Res. & Servs. A dmin.,
Teaching Health Centers Graduate Medical Education
(THCGME) Program: Who do we serve? (Dec. 2019), the
THCGME program has facilitated health centers’ efforts
to train, recruit and retain professional clinical staff.
Congress has consistently funded the Teaching Health
Centers program since passage of the ACA, also through
MACRA, § 221, and BBA, § 50901(d), and most recently
in response to the coronavirus public health emergency,
through the CARES Act, § 3831(c) (appropriating over $21
million in additional funds through the end of November
of 2020).
Second, the ACA expanded eligibility for Medicaid
program benefits to adults with incomes up to 138 percent
of the FPL and increased federal financial participation
(“match”) for Medicaid ser vices to the expansion
population. 42 U.S.C. §§ 1396a(a)(10)(A)(i)(VIII) (creation

17
of “expansion” population eligibility), 1396d(y)(1) (federal
cost-share of services to “expansion” population); see also
National Federation of Independent Business v. Sebelius,
567 U.S. 519, 583 (2012) (“the federal government’s share
of the costs of medical services provided to this group…
started at 100% through 2016 and will gradually decline
until it reaches 90% for 2020 and years thereafter.”).
Before the ACA, 38.5 percent of health center patients
were insured through Medicaid. NACHC, supra, Fig.
2-6. With Medicaid expansion, that share increased to 49
percent providing health centers with a newly-insured
population with the attendant increase in revenue.
Third, the ACA added preventive services payments
to the Medicare payment rate and eliminated a cap on
Medicare payments to health centers. ACA, § 10501,
42 U.S.C. § 1395m(o) (development and implementation
of a health center prospective payment system for
Medicare services). A GAO analysis of 2007 health center
Medicare cost reports found that about 72 percent of
health centers had costs per visit that exceeded Medicare
upper payment limits, which added to nearly $60 million
in underpayments. U.S. G overnment Accountability
O ffice , Medicare Payments to Federally Qualified
Health Centers, Report 10-576R (Jul. 30, 2010). To align
payments for Medicare services better with actual health
center costs, Congress enacted a Medicare Prospective
Payment System for health centers in Section 10501 of
the ACA. Health centers began transitioning to this new
Medicare payment methodology on October 1, 2014. See
U.S. Dep ’t of Health & Human Servs., Centers for
Medicare & Medicaid Servs., FQHC PPS Overview (Nov.
13, 2019).

18
Fourth, the ACA established a new pathway to health
insurance coverage through subsidized marketplace plans.
26 U.S.C. § 36B (providing refundable tax credits to
purchase coverage to eligible individuals with household
incomes between 100 percent and 400 percent of the FPL);
King v. Burwell, 135 S. Ct. 2480, 2487 (2015); Me. Cmty.
Health Options v. United States, 590 U.S. ___, slip op.,
at 1-2 (Apr. 27, 2020). Subsidized marketplace insurance
generated a new funding stream to pay for covered
services and resulting revenue has spurred health center
growth. Rosenbaum et al., supra, at 4.
Overall, the CHC Fund made it possible for health
centers to build, expand, add new sites, widen the scope
of preventive and primary care services (including oral
health, behavioral health, and pharmaceutical assistance),
and train, hire, and retain clinical, administrative, and
patient support staff. The permanent funding formula,
substantial funding through the CHC Fund, Medicaid
expansion and subsidized marketplace coverage have
provided vital revenue to support health center operations
and permitted health centers to deliver services to more
individuals who lack insurance or other means of paying
for necessary medical care. In fact, health centers outrank
other ambulatory care providers in new patient acceptance
rates, NACHC, supra, Fig. 2-5, and experienced a
remarkable 46 percent growth in service capacity, from
19.5 million patients in 2010 to 28.4 million patients in 2018.
III. Health Centers Deliver Quality, Cost-Effective
Services While Serving More At-Risk Patients than
Other Ambulatory Primary Care Providers.
The dramatic expansion of the health center program
after enactment of the ACA has enabled health centers to

19
meet growing demand and care for more complex patient
needs. By 2018, health centers had broadened services so
that 95 percent offered behavioral care; 57 percent had
on site staff authorized to provide medication-assisted
opioid use disorder treatment; 77 percent could provide
continuous care for physical and behavioral health
conditions as recognized patient centered medical homes;
60 percent were using telehealth for specialist provider
consultations and 54 percent were using telehealth for
patient interaction. U.S. Dep ’t of H ealth & Human
Servs., Health Res. & Servs. A dmin., Bureau of Primary
Health Care, 2018 Health Center Data: National Data,
Other Data Elements (2019); Rosenbaum et al., supra, at 8.
Health centers care for patients who suffer from
chronic health conditions at higher rates than the
general population. Where health center patients report
a hypertension prevalence rate of 45 percent, it stands
at 32 percent in the general population; 42 percent of
health center patients show high cholesterol, compared
to 36 percent in the general population; 21 percent of
health center patients suffer from asthma, compared to
14 percent nationally; and 21 percent of health center
patients have diabetes, more than doubling the national
rate of 11 percent. NACHC, supra, Fig. 1-10. Health center
patients are also more likely to present known health risks
such as smoking and obesity than the general population.
Peter Shin et al., A Profile of Community Health Center
Patients: Implications for Policy, K a iser Fa mily
Foundation (Dec. 23, 2013). Moreover, health centers have
experienced an increasing demand in care from people
presenting serious health problems or risks to health.
UDS data for the period 2013-2018 demonstrates the
number of health center patients with HIV diagnosis has
increased 66 percent from 115,421 to 191,717; alcohol and

20
other substance abuse disorder patients increased from
506,279 to 908,984 (80 percent); patients with obesity, “a
health condition that leads to major complications,” grew
by 193 percent (from 2,228,089 to 6,520,928); and patients
with depression, mood and anxiety disorders increased by
72 percent, from 2,740,638 to 4,724,691. Rosenbaum et al.,
supra, at 9. In sum, the number of health center patients
diagnosed with a chronic health condition grew 25 percent
from 2013 to 2017. NACHC, supra, Fig. 1-11.
Despite serving more at-risk patients, health centers
continue to maintain top quality and efficiency standards.
Health centers achieve higher rates of hypertension
control (63 percent of the population) and diabetes control
(67 percent) than the national average (57 percent and 60
percent respectively). NACHC, Fig. 3-1. Likewise, health
center patients present slightly lower rates of low birth
weight (8 percent) than the prevailing national average
(8.3 percent). Health center patients are more likely
to receive mammograms, PAP smears, and colorectal
cancer screenings than individuals nationwide. NACHC,
Figs. 3-8, 3-9, 3-10. Health center patients have access to
more preventive services than with other primary care
providers, such as asthma education, tobacco cessation
education, health education, and immunizations for 65
years and older. NACHC, Fig. 3-7. In all, 98 percent
of all health center patients report being satisfied with
care, higher than low-income patients nationally (87
percent). Clearly, health centers meet the special needs
and widening demand for services of the populations they
serve.
Health centers deliver a wide range of services with
remarkably cost-effective, quality care. The average daily

21
cost per health center patient, $2.09, is almost one third
lower than office-based physician settings ($3.06). NACHC,
Fig. 4-9. Compared to other providers, health centers save
24 percent in total spending per Medicaid patient and
35 percent per child. NACHC, Figs. 4-2, 4-7. Likewise,
areas with high health center penetration show 10 percent
lower Medicare spending per beneficiary ($926) than lowhealth-center penetration areas. NACHC, Fig. 4-6. On a
per patient per year basis, health center expenditures add
up to $4,043 or 24 percent lower than $5,306 in annual
expenditures per patient among non-health center users.
NACHC, Fig. 4-8. Finally, while health centers generate
substantial care delivery savings, they are key economic
drivers in the communities they serve, accounting for
$54.6 billion in total economic activity nationally through
payroll outlays, capital investments, and procurements.
NACHC, Fig. 4-10.
IV. Completely Repealing the ACA , Including
Invalidating Key Health Center Program Provisions
such as the CHC Fund, Teaching and NHSC
Funding, and Health Center Medicare PPS,
and Critical Sources of Revenue that Support
Operations such as the Medicaid Expansion and
the Subsidized Health Insurance Marketplace
Would Severely Jeopardize Health Centers’ Ability
to Deliver the Primary Care Services Upon Which
Over 28 Million Low-Income Individuals and
Thousands of Medically Underserved Communities
Depend.
Health centers experienced an influx of new patients
as ACA provisions led to expanded facilities, permitted
hiring additional staff, established a health center

22
Medicare prospective pay ment system and more
individuals gained health coverage through expanded
Medicaid and the private subsidized marketplace. As
noted, the number of health center patients currently
exceeds 28 million, a 46 percent increase from patient
levels prior to enactment of the ACA. While 59 percent
(almost 17 million) of health center patients are covered
through Medicaid or other forms of public insurance, 23
percent of patients are uninsured. NACHC, supra, Figs.
1-5, 1-8, 2-9 and 2-11.
Complete ACA repeal would profoundly harm health
centers. Without the ACA, federal spending on health
care would fall by at least $134.7 billion, a 35 percent loss,
and state spending on health care would in turn fall by
at least $9.6 billion (a 6 percent drop when compared to
current ACA spending). Repeal would cause an additional
19.9 million people to become uninsured, a 65 percent
increase in the number of uninsured people in the United
States, which would then exceed 50 million people.
Linda J. Blumberg et al., State by State Estimates of the
Coverage and Funding Consequences of Full Repeal of
the ACA, Urban Institute (Mar. 26, 2019) at 22. Demand
for uncompensated care would increase by at least
$50.2 billion, an increase of 82 percent compared with
ACA levels. Id. at 2. This sudden increase in uninsured
individuals will make it impossible nationwide for health
centers to meet the needs of their communities and will
surely jeopardize program viability.
Health centers are required to provide services to
patients regardless of ability to pay and they use their
Section 330 basic grant to cover some of the costs of
treating uninsured patients. Repeal of the ACA would

23
trigger an explosion in the numbers of uninsured patients
who seek primary care, placing an impossible financial
burden on health centers. Termination of the CHC
Fund would mean health centers would lose more than
70 percent of federal funding. See Peter Shin, Jessica
Sharac & Sara Rosenbaum, If the Affordable Care Act
is Repealed, What Would Be the Impact on Community
Health Centers and the Communities They Serve? GW
H ea lth Policy a nd M a nagement M atters (May 1,
2020) at 5. Stripping away the ACA Medicaid expansion,
repealing subsidized marketplace plans, and eliminating
the health center Medicare reforms would leave health
centers with severely diminished access to insurance
revenue; remaining grants would provide health centers
with funding vastly below the cost of caring for their
patients. Even today, total revenue falls well below the
cost of care; in 2018, for example, health centers cared
for over 6.4 million uninsured individuals, leaving a cost
gap in excess of $1.5 billion. NACHC, supra, Fig. 6-4. The
expected influx of uninsured patients due to ACA repeal
would saddle health centers with an unsustainable balance
of unpaid services, threatening their ability to serve their
communities.
Researchers from the George Washington University
Milken Institute of Public Health estimate conservatively
that repealing the ACA’s Medicaid expansion and
Marketplace subsidies would lead to an increase of 4.5
million uninsured health center patients and a 12 percent
reduction in total revenue ($3.5 billion in a single year),
which would in turn trigger a reduction in capacity of 3.4
million patients, nearly 29,000 FTE staff members, over
14.2 million patient visits, and 1,432 sites from 2018 levels.
That analysis does not include the impact of a decrease in

24
Medicare patient revenue if the ACA’s Medicare patient
payment reforms were repealed, or repeal of the CHC
Fund, which would eliminate over 70 percent of health
center operational funding, a catastrophe only a relatively
few centers could survive. Peter Shin, Jessica Sharac &
Sara Rosenbaum, supra, at 5.
Congress has supported the health center program as
a proven, quality care, patient-focused and cost-efficient
solution to primary care shortages and other barriers to
access to care. If this Court were to hold the ACA stricken
in its entirety, including provisions Congress intended to
ensure health centers have the resources to fulfill their
mission, the consequences would be catastrophic for
over 28 million people in close to 12,000 rural and urban
communities who rely on health centers for their primary
health care needs. This result would be contrary to the
intent of Congress and this Court’s precedents against
facial or implied invalidation of statutes.
This Court extends deference to the policy choices
of the coordinate, political branches of government,
and refuses to act “in the role of a Council of Revision,
conferring on itself the power to invalidate laws at the
behest of anyone who disagrees with them.” Arizona
Christian Sch. Tuition Org. v. Winn, 563 U.S. 125,
145-46 (2011); see also United States v. Booker, 543 U.S.
220, 258-259 (2005) (noting that “[m]ost of the statute
[the Sentencing Act] is perfectly valid,” and retaining
statute’s portions that are constitutionally valid, capable of
functioning independently, and consistent with Congress’
basic objectives in enacting the statute); Ayotte v. Planned
Parenthood, 546 U.S. 320, 329 (2006) (disfavoring facial
challenges and acknowledging caution not to frustrate

25
the intent of the elected representatives of the people);
Me. Cmty. Health Options, 590 U.S. ___ (restating that
“repeals by implication are generally disfavored”).
Health centers are serving the primary care needs of
their patients throughout the ongoing coronavirus public
health emergency. At the time of filing this brief, almost
90 percent of health centers report an aggregate of over
100,000 patients tested for coronavirus weekly and more
than 65 percent offer walk-up or drive-up testing. U.S.
Dep’t of Health & Human Servs., Health Res. & Servs.
A dmin., Press Release: HHS Awards More than Half
Billion Dollars Across the Nation to Expand COVID-19
Testing, supra. Proving that, “[a]s a vital component
of the nation’s health care safety net, health centers
are uniquely positioned to deliver needed primary care
services during an emergency,” U.S. Dep’t of Health &
Human Servs., Health Res. & Servs. A dmin., Requesting
a Change in Scope to Add Temporary Service Sites in
Response to Emergency Events, Program Assistance
Letter 2020-05 (Apr. 15, 2020) at 2, Congress allocated
$2.02 billion of federal money to ensure health centers
continue to provide critical triage, diagnosis, treatment
and other indispensable patient supports in response to
the pandemic. The health center program is fulfilling its
mission as Congress directed; it must be protected and
fully supported.

26
CONCLUSION
For the foregoing reasons, this Court should hold that
the minimum coverage provision, if unlawful, is severable,
and reverse the judgment of the Court of Appeals.
May 13, 2020
Respectfully submitted,
Edward T. Waters
Counsel of Record
Phillip A. Escoriaza
Feldesman Tucker Leifer Fidell LLP
1129 20th Street, N.W., 4th Floor
Washington, D.C. 20036
(202) 466-8960
ewaters@ftlf.com
Counsel for Amicus Curiae

